               Department of Veterans Affairs
               Office of Inspector General


                 Office of Healthcare Inspections

Report No. 13-00376-201




    Combined Assessment Program 

            Review of the 

       Captain James A. Lovell 

      Federal Health Care Center 

        North Chicago, Illinois 





May 31, 2013

                      Washington, DC 20420
To Report Suspected Wrongdoing in VA Programs and Operations
                    Telephone: 1-800-488-8244
                   E-Mail: vaoighotline@va.gov
         (Hotline Information: www.va.gov/oig/hotline)
              CAP Review of the Captain James A. Lovell Federal Health Care Center, North Chicago, IL



                                              Glossary
                 CAP            Combined Assessment Program
                 CLC            community living center
                 CS             controlled substances
                 CSC            Construction Safety Committee
                 DoD            Department of Defense
                 ECOMS          Executive Committee of the Medical Staff
                 EHR            electronic health record
                 EOC            environment of care
                 facility       Captain James A. Lovell Federal Health Care Center
                 FPPE           Focused Professional Practice Evaluation
                 FTE            full-time employee equivalent
                 FY             fiscal year
                 HPC            hospice and palliative care
                 LIP            licensed independent practitioner
                 MH             mental health
                 NA             not applicable
                 NC             noncompliant
                 OIG            Office of Inspector General
                 PCCT           Palliative Care Consult Team
                 PE             pulmonary embolism
                 PR             peer review
                 QM             quality management
                 VHA            Veterans Health Administration
                 VISN           Veterans Integrated Service Network




VA OIG Office of Healthcare Inspections
                  CAP Review of the Captain James A. Lovell Federal Health Care Center, North Chicago, IL



                                            Table of Contents 

                                                                                                                             Page 

Executive Summary ...................................................................................................              i


Objectives and Scope ................................................................................................              1

  Objectives ...............................................................................................................       1

  Scope......................................................................................................................      1


Reported Accomplishments......................................................................................                     2


Results and Recommendations ................................................................................                       4

  QM ..........................................................................................................................    4

  EOC ........................................................................................................................     7

  Medication Management – CS Inspections .............................................................                             9

  Coordination of Care – HPC ...................................................................................                  11

  Long-Term Home Oxygen Therapy ........................................................................                          13

  Nurse Staffing .........................................................................................................        14

  Preventable PE .......................................................................................................          15

  Construction Safety.................................................................................................            16


Appendixes
  A. Facility Profile ....................................................................................................        18

  B. VHA Patient Satisfaction Survey and Hospital Outcome of Care Measures ......                                                 19

  C. VISN Director Comments ..................................................................................                    20

  D. Facility Director Comments ...............................................................................                   21

  E. OIG Contact and Staff Acknowledgments .........................................................                              27

  F. Report Distribution .............................................................................................            28

  G. Endnotes ...........................................................................................................         29





VA OIG Office of Healthcare Inspections
              CAP Review of the Captain James A. Lovell Federal Health Care Center, North Chicago, IL



                                Executive Summary 

Review Purpose: The purpose of the review was to evaluate selected health care
facility operations, focusing on patient care quality and the environment of care, and to
provide crime awareness briefings.          We conducted the review the week of
February 11, 2013.

Review Results: The review covered eight activities.                              We    made      no
recommendations in the following activity:

   Long-Term Home Oxygen Therapy

The facility’s reported accomplishments included developing and activating the
first-of-its-kind integrated VA and Department of Defense Federal Health Care Center
and having two of its Lean Six Sigma performance improvement projects featured on
Joint Commission Resources Quality and Safety Network.

Recommendations: We made recommendations in the following seven activities:
Quality Management: Consistently report the results of Focused Professional Practice
Evaluations for newly hired licensed independent practitioners to the Executive
Committee of the Medical Staff. Revise the local observation bed policy to include all
required elements. Reassess observation criteria and utilization when conversions from
observation bed status to acute admissions are over 30 percent. Include all services in
the review of electronic health record quality. Include the results of proficiency testing
and the results of inspections by government or private (peer) entities in the blood
usage and review process.

Environment of Care: Consistently clean patient care equipment between patient use.
Ensure that gloves in all sizes and gowns are available in the therapy clinic areas.

Medication Management – Controlled Substances Inspections: Sufficiently rotate
inspectors in inspection assignments, and monitor compliance. Ensure inspectors do
not participate in inspections beyond their 3-year appointment expiration date, and
monitor compliance.

Coordination of Care – Hospice and Palliative Care: Include a dedicated nurse, social
worker, and administrative support person and a 0.25 full-time employee equivalent
psychologist or other mental health provider on the Palliative Care Consult Team.
Ensure that all non-hospice and palliative care clinical staff who provide care to patients
at the end of their lives receive end-of-life training.

Nurse Staffing: Monitor the staffing methodology that was implemented in
October 2012. Ensure that unit 134-3C’s nurse managers reassess the target nursing
hours per patient day to more accurately plan for staffing and evaluate the actual
staffing provided.



VA OIG Office of Healthcare Inspections                                                             i
              CAP Review of the Captain James A. Lovell Federal Health Care Center, North Chicago, IL


Preventable Pulmonary Embolism: Initiate protected peer review for the identified
patient, and complete any recommended review actions.

Construction Safety: Ensure that routine construction site inspections are conducted by
the required Construction Safety Committee members, include all required elements,
and are documented. Require that Construction Safety Committee minutes contain
documentation of deficiencies identified during inspections and any follow-up actions in
response to unsafe conditions and that minutes track actions to completion.

Comments
The Veterans Integrated Service Network and Facility Directors agreed with the
Combined Assessment Program review findings and recommendations and provided
acceptable improvement plans. (See Appendixes C and D, pages 20–26, for the full
text of the Directors’ comments.) We consider recommendation 14 closed. We will
follow up on the planned actions for the open recommendations until they are
completed.




                                                           JOHN D. DAIGH, JR., M.D. 

                                                          Assistant Inspector General for 

                                                             Healthcare Inspections





VA OIG Office of Healthcare Inspections                                                             ii
              CAP Review of the Captain James A. Lovell Federal Health Care Center, North Chicago, IL



                              Objectives and Scope 

Objectives
CAP reviews are one element of the OIG’s efforts to ensure that our Nation’s veterans
receive high quality VA health care services. The objectives of the CAP review are to:

   	   Conduct recurring evaluations of selected health care facility operations, focusing
        on patient care quality and the EOC.

   	   Provide crime awareness briefings to increase employee understanding of the
        potential for program fraud and the requirement to refer suspected criminal
        activity to the OIG.

Scope
We reviewed selected clinical and administrative activities to evaluate compliance with
requirements related to patient care quality and the EOC. In performing the review, we
inspected selected areas, interviewed managers and employees, and reviewed clinical
and administrative records. The review covered the following eight activities:

   	   QM

   	   EOC

   	   Medication Management – CS Inspections

   	   Coordination of Care – HPC

   	   Long-Term Home Oxygen Therapy

   	   Nurse Staffing

   	   Preventable PE

   	   Construction Safety

We have listed the general information reviewed for each of these activities. Some of
the items listed may not have been applicable to this facility because of a difference in
size, function, or frequency of occurrence.

The review covered facility operations for FY 2012 and FY 2013 through
February 14, 2013, and was done in accordance with OIG standard operating
procedures for CAP reviews. We also asked the facility to provide the status on the
recommendations we made in our previous CAP report (Combined Assessment
Program Review of the North Chicago VA Medical Center, North Chicago, Illinois,
Report No. 08-02601-131, May 20, 2009).



VA OIG Office of Healthcare Inspections                                                            1
              CAP Review of the Captain James A. Lovell Federal Health Care Center, North Chicago, IL


During this review, we presented crime awareness briefings for 110 employees. These
briefings covered procedures for reporting suspected criminal activity to the OIG and
included case-specific examples illustrating procurement fraud, conflicts of interest, and
bribery.

Additionally, we surveyed employees regarding patient safety and quality of care at the
facility. An electronic survey was made available to all facility employees, and
450 responded. We shared survey results with facility managers.

In this report, we make recommendations for improvement. Recommendations pertain
to issues that are significant enough to be monitored by the OIG until corrective actions
are implemented.

                         Reported Accomplishments

First-of-Its Kind VA/DoD Federal Health Care Center
The integration of the North Chicago VA Medical Center and the Naval Health Clinic
Great Lakes began in October 2003 and is now in Phase III of its development. On
October 1, 2010, the Federal Health Care Center was activated. It represents the
first-of-its-kind partnership between VA and DoD and was designed as a 5-year
demonstration project that would focus on integration opportunities and efficiencies.

Some of the facility’s integration achievements in 2012 were:

   	   Co-locating the Compensation and Pension Examination Program and the
        Integrated Disability Evaluation System. This has resulted in the facility being
        ranked as number one in timeliness of completing integrated disability
        evaluations.
   	   Developing an integrated, strategic dashboard to improve operational efficiency
        in VA and DoD clinics.
       Establishing the first fully-integrated VA/DoD dental clinic.
       Two Navy Master-at-Arms completing the VA’s Police Academy and returning to
        provide protective services on the facility’s campus. These were the first two
        active duty sailors to attend and graduate from VA’s Law Enforcement Training
        Center.
   	   Six Navy Hospital Corpsmen completing a 26-week specialized clinical training
        program and working in the inpatient medical/surgical unit, intensive care unit,
        and emergency department.

Lean Six Sigma Projects

In August 2012, the facility was featured on Joint Commission Resources Quality and
Safety Network in a presentation titled, “How Do They Do It? Meeting Top Compliance
Issues.” The vignette was named “Developing Your Performance Improvement
Approach” and highlighted two of the facility’s Lean Six Sigma performance
improvement projects. Lean Six Sigma is the main method the facility uses to improve


VA OIG Office of Healthcare Inspections                                                            2
              CAP Review of the Captain James A. Lovell Federal Health Care Center, North Chicago, IL


performance. The first project focused on improving Code Pink, which is the response
time to infant/child abduction, and the second project focused on improving the sick call
process at the Fisher Clinic.

USS Red Rover
USS Red Rover is one of the facility’s four branch medical clinics located on Naval
Station Great Lakes. This branch medical clinic determines recruit suitability and
provides recruit medical and dental in-processing for entrance into the United States
Navy.

Significant accomplishments during FY 2012 were:

      Providing more than 40,000 hearing, dental, and eye examinations; 18,000 pairs
       of eyeglasses; and 230,000 immunizations.
      Saving $420,000 by changing the mechanism for immunization administration.
      Saving $3.7 million by eliminating unnecessary immunizations.
      Decreasing febrile respiratory infections in recruits by 75 percent by
       implementing the adenovirus vaccine.
      Implementing a long-acting, reversible contraceptive program for female recruits.




VA OIG Office of Healthcare Inspections                                                            3
                       CAP Review of the Captain James A. Lovell Federal Health Care Center, North Chicago, IL



                          Results and Recommendations 

QM
The purpose of this review was to determine whether facility senior managers actively supported
and appropriately responded to QM efforts and whether the facility complied with selected
requirements within its QM program.1

We interviewed senior managers and key QM employees, and we evaluated meeting minutes,
EHRs, and other relevant documents. The table below shows the areas reviewed for this topic.
The areas marked as NC needed improvement. Items that did not apply to this facility are
marked “NA.”

 NC                   Areas Reviewed                                          Findings
       There was a senior-level committee/group
       responsible for QM/performance
       improvement, and it included the required
       members.
       There was evidence that Inpatient Evaluation
       Center data was discussed by senior
       managers.
       Corrective actions from the protected PR
       process were reported to the PR Committee.
 X     FPPEs for newly hired LIPs complied with          Seventy-one profiles reviewed:
       selected requirements.                             None of the FPPE results were reported to
                                                           the ECOMS.
 X     Local policy for the use of observation beds       The facility’s policy did not include how the
       complied with selected requirements.                service responsible for the patient is
                                                           determined, how the physician responsible for
                                                           the patient is determined, or that each
                                                           observation patient must have a focused goal
                                                           for the period of observation.
 X     Data regarding appropriateness of                 The 1 month of available data reviewed:
       observation bed use was gathered, and              Greater than 30 percent of observation
       conversions to acute admissions were less           patients were converted to acute admissions,
       than 30 percent, or the facility had reassessed     and the facility had not reassessed
       observation criteria and proper utilization.        observation criteria or utilization.
       Staff performed continuing stay reviews on at
       least 75 percent of patients in acute beds.
       Appropriate processes were in place to
       prevent incidents of surgical items being
       retained in a patient following surgery.
       The cardiopulmonary resuscitation review
       policy and processes complied with
       requirements for reviews of episodes of care
       where resuscitation was attempted.




VA OIG Office of Healthcare Inspections                                                                     4
                       CAP Review of the Captain James A. Lovell Federal Health Care Center, North Chicago, IL


 NC            Areas Reviewed (continued)                                    Findings
  X    There was an EHR quality review committee,        Twelve months of EHR Committee meeting
       and the review process complied with              minutes reviewed:
       selected requirements.                             Not all services were included in review of
                                                           EHR quality.
       The EHR copy and paste function was
       monitored.
       Appropriate quality control processes were in
       place for non-VA care documents, and the
       documents were scanned into EHRs.
 X     Use and review of blood/transfusions              Four quarters of the Blood Usage Review
       complied with selected requirements.              Committee meeting minutes reviewed:
                                                          The review process did not include the results
                                                           of proficiency testing and the results of
                                                           inspections by government or private (peer)
                                                           entities.
       CLC minimum data set forms were transmitted
       to the data center with the required frequency.
       Overall, if significant issues were identified,
       actions were taken and evaluated for
       effectiveness.
       There was evidence at the senior leadership
       level that QM, patient safety, and systems
       redesign were integrated.
       Overall, there was evidence that senior
       managers were involved in performance
       improvement over the past 12 months.
       Overall, the facility had a comprehensive,
       effective QM/performance improvement
       program over the past 12 months.
       The facility complied with any additional
       elements required by VHA or local policy.

Recommendations

1. We recommended that processes be strengthened to ensure that the results of FPPEs for
newly hired LIPs are consistently reported to the ECOMS.

2. We recommended that the local observation bed policy be revised to include all required
elements.

3. We recommended that processes be strengthened to ensure that when conversions from
observation bed status to acute admissions are over 30 percent, observation criteria and
utilization are reassessed.

4. We recommended that processes be strengthened to ensure that the review of EHR quality
includes all services.




VA OIG Office of Healthcare Inspections                                                                     5
                       CAP Review of the Captain James A. Lovell Federal Health Care Center, North Chicago, IL


5. We recommended that processes be strengthened to ensure that the blood usage and
review process includes the results of proficiency testing and the results of inspections by
government or private (peer) entities.




VA OIG Office of Healthcare Inspections                                                                     6
                       CAP Review of the Captain James A. Lovell Federal Health Care Center, North Chicago, IL


EOC
The purpose of this review was to determine whether the facility maintained a clean and safe
health care environment in accordance with applicable requirements.2

We inspected the intensive care, the medical/surgical, the inpatient MH, and two CLC units. We
also inspected the women’s health, occupational therapy, physical therapy, kinesiotherapy, and
primary care clinics and the emergency department. Additionally, we reviewed relevant
documents and interviewed key employees and managers. The table below shows the areas
reviewed for this topic. The areas marked as NC needed improvement. Items that did not apply
to this facility are marked “NA.”

 NC           Areas Reviewed for General EOC                                  Findings
       EOC Committee minutes reflected sufficient
       detail regarding identified deficiencies,
       corrective actions taken, and tracking of
       corrective actions to closure.
       An infection prevention risk assessment was
       conducted, and actions were implemented to
       address high-risk areas.
       Infection Prevention/Control Committee
       minutes documented discussion of identified
       problem areas and follow-up on implemented
       actions and included analysis of surveillance
       activities and data.
       The facility had a policy that detailed cleaning
       of equipment between patients.
       Patient care areas were clean.                        
       Fire safety requirements were met.                    
 X     Environmental safety requirements were met.         CLC resident weight scales and lifts and
                                                            outpatient wheelchairs and scooters were not
                                                            cleaned consistently.
       Infection prevention requirements were met.
       Medication safety and security requirements
       were met.
       Sensitive patient information was protected,
       and patient privacy requirements were met.
       The facility complied with any additional
       elements required by VHA, local policy, or
       other regulatory standards.
         Areas Reviewed for the Women’s Health
                             Clinic
       The Women Veterans Program Manager                     
       completed required annual EOC evaluations,
       and the facility tracked women’s health-related
       deficiencies to closure.
       Fire safety requirements were met.                     
       Environmental safety requirements were met.
       Infection prevention requirements were met.


VA OIG Office of Healthcare Inspections                                                                     7
                       CAP Review of the Captain James A. Lovell Federal Health Care Center, North Chicago, IL


 NC      Areas Reviewed for the Women’s Health                                  Findings
                      Clinic (continued)
       Patient privacy requirements were met.
       The facility complied with any additional
       elements required by VHA, local policy, or
       other regulatory standards.
        Areas Reviewed for Physical Medicine and
               Rehabilitation Therapy Clinics
       Fire safety requirements were met.                    
       Environmental safety requirements were met.           
 X     Infection prevention requirements were met.        Gloves in all sizes and gowns were not
                                                           available in the therapy clinic areas.
       Medication safety and security requirements           
       were met.
       Patient privacy requirements were met.                 
       The facility complied with any additional              
       elements required by VHA, local policy, or
       other regulatory standards.

Recommendations

6. We recommended that processes be strengthened to ensure that patient care equipment is
consistently cleaned between patient use.

7. We recommended that processes be strengthened to ensure that gloves in all sizes and
gowns are available in the therapy clinic areas.




VA OIG Office of Healthcare Inspections                                                                     8
                       CAP Review of the Captain James A. Lovell Federal Health Care Center, North Chicago, IL


Medication Management – CS Inspections
The purpose of this review was to determine whether the facility complied with requirements
related to CS security and inspections.3

We reviewed relevant documents and interviewed key employees. We also reviewed the
training files of the CS Coordinator and 10 CS inspectors and inspection documentation from
10 CS areas, the inpatient and outpatient pharmacies, and the emergency drug cache. The
table below shows the areas reviewed for this topic. The areas marked as NC needed
improvement. Items that did not apply to this facility are marked “NA.”

 NC                    Areas Reviewed                                         Findings
       Facility policy was consistent with VHA
       requirements.
       VA police conducted annual physical security
       surveys of the pharmacy/pharmacies, and
       any identified deficiencies were corrected.
       Instructions for inspecting automated
       dispensing machines were documented,
       included all required elements, and were
       followed.
       Monthly CS inspection findings summaries
       and quarterly trend reports were provided to
       the facility Director.
       CS Coordinator position description(s) or
       functional statement(s) included duties, and
       CS Coordinator(s) completed required
       certification and were free from conflicts of
       interest.
       CS inspectors were appointed in writing,
       completed required certification and training,
       and were free from conflicts of interest.
 X     Non-pharmacy areas with CS were inspected         Documentation of 10 CS areas inspected during
       in accordance with VHA requirements, and          the past 6 months reviewed:
       inspections included all required elements.        One inspector was not sufficiently rotated in
                                                            inspection assignments.
       Pharmacy CS inspections were conducted in
       accordance with VHA requirements and
       included all required elements.
 X     The facility complied with any additional          Appointment letters and inspection
       elements required by VHA or local policy.          documentation reviewed:
                                                           Although inspectors are limited to 3-year
                                                            appointments as required by VHA policy, one
                                                            inspector participated in five inspections
                                                            beyond the appointment expiration date.




VA OIG Office of Healthcare Inspections                                                                     9
                       CAP Review of the Captain James A. Lovell Federal Health Care Center, North Chicago, IL



Recommendations

8. We recommended that processes be strengthened to ensure that inspectors are sufficiently
rotated in inspection assignments and that compliance be monitored.

9. We recommended that processes be strengthened to ensure that inspectors do not
participate in inspections beyond their 3-year appointment expiration date and that compliance
be monitored.




VA OIG Office of Healthcare Inspections                                                                    10
                       CAP Review of the Captain James A. Lovell Federal Health Care Center, North Chicago, IL


Coordination of Care – HPC
The purpose of this review was to determine whether the facility complied with selected
requirements related to HPC, including PCCT, consults, and inpatient services.4

We reviewed relevant documents, 20 EHRs of patients who had PCCT consults (including
10 HPC inpatients), and 25 employee training records (10 HPC staff records and 15 non-HPC
staff records), and we interviewed key employees. The table below shows the areas reviewed
for this topic. The areas marked as NC needed improvement. Items that did not apply to this
facility are marked “NA.”

 NC                    Areas Reviewed                                         Findings
  X    A PCCT was in place and had the dedicated         List of staff assigned to the PCCT reviewed:
       staff required.                                    A nurse, social worker, and an administrative
                                                            support person had not been dedicated to the
                                                            PCCT.
                                                          VHA policy required a 0.25 FTE psychologist
                                                            or other MH provider, but only a 0.1 FTE
                                                            psychologist was dedicated to the PCCT.
       The PCCT actively sought patients
       appropriate for HPC.
       The PCCT offered end-of-life training.
 X     HPC staff and selected non-HPC staff had           Of the 15 non-HPC staff, there was no
       end-of-life training.                               evidence that 5 had end-of-life training.
       The facility had a VA liaison with community
       hospice programs.
       The PCCT promoted patient choice of location
       for hospice care.
       The CLC-based hospice program offered
       bereavement services.
       The HPC consult contained the word
       “palliative” or “hospice” in the title.
       HPC consults were submitted through the
       Computerized Patient Record System.
       The PCCT responded to consults within the
       required timeframe and tracked consults that
       had not been acted upon.
       Consult responses were attached to HPC
       consult requests.
       The facility submitted the required electronic
       data for HPC through the VHA Support
       Service Center.
       An interdisciplinary team care plan was
       completed for HPC inpatients within the
       facility’s specified timeframe
       HPC inpatients were assessed for pain with
       the frequency required by local policy.




VA OIG Office of Healthcare Inspections                                                                    11
                       CAP Review of the Captain James A. Lovell Federal Health Care Center, North Chicago, IL


NC              Areas Reviewed (continued)                                      Findings
       HPC inpatients’ pain was managed according
       to the interventions included in the care plan.
       HPC inpatients were screened for an
       advanced directive upon admission and
       according to local policy.
NA     The facility complied with any additional
       elements required by VHA or local policy.

Recommendations

10. We recommended that processes be strengthened to ensure that the PCCT includes a
dedicated nurse, social worker, and administrative support person and a 0.25 FTE psychologist
or other MH provider.

11. We recommended that processes be strengthened to ensure that all non-HPC clinical staff
who provide care to patients at the end of their lives receive end-of-life training.




VA OIG Office of Healthcare Inspections                                                                    12
                       CAP Review of the Captain James A. Lovell Federal Health Care Center, North Chicago, IL


Long-Term Home Oxygen Therapy
The purpose of this review was to determine whether the facility complied with requirements for
long-term home oxygen therapy in its mandated Home Respiratory Care Program.5

We reviewed relevant documents and 32 EHRs of patients enrolled in the home oxygen
program (including 9 patients deemed to be high risk), and we interviewed key employees. The
table below shows the areas reviewed for this topic. Items that did not apply to this facility are
marked “NA.” The facility generally met requirements. We made no recommendations.

 NC                      Areas Reviewed                                       Findings
       There was a local policy to reduce the fire
       hazards of smoking associated with oxygen
       treatment.
       The Chief of Staff reviewed Home Respiratory
       Care Program activities at least quarterly.
       The facility had established a home
       respiratory care team.
       Contracts for oxygen delivery contained all
       required elements and were monitored
       quarterly.
       Home oxygen program patients had active
       orders/prescriptions for home oxygen and
       were re-evaluated for home oxygen therapy
       annually after the first year.
       Patients identified as high risk received
       hazards education at least every 6 months
       after initial delivery.
       NC high-risk patients were identified and
       referred to a multidisciplinary clinical
       committee for review.
       The facility complied with any additional
       elements required by VHA or local policy.




VA OIG Office of Healthcare Inspections                                                                    13
                       CAP Review of the Captain James A. Lovell Federal Health Care Center, North Chicago, IL


Nurse Staffing
The purpose of this review was to determine the extent to which the facility implemented the
staffing methodology for nursing personnel and to evaluate nurse staffing on two selected units
(acute care and long-term care).6

We reviewed relevant documents and 16 training files, and we interviewed key employees.
Additionally, we reviewed the actual nursing hours per patient day for acute care unit 133-4A/B
and CLC unit 134-3C for 50 randomly selected days (holidays, weekdays, and weekend days)
between October 1, 2011, and September 30, 2012. The table below shows the areas reviewed
for this topic. Items that did not apply to this facility are marked “NA.”

 NC                    Areas Reviewed                                         Findings
       The unit-based expert panels followed the
       required processes.
       The facility expert panel followed the required
       processes and included all required members.
       Members of the expert panels completed the
       required training.
 X     The facility completed the required steps to        The nurse staffing methodology was not
       develop a nurse staffing methodology by              implemented until October 4, 2012.
       September 30, 2011.
 X     The selected units’ actual nursing hours per        Unit 134-3C’s average actual nursing hours
       patient day met or exceeded the target               per patient day were significantly below the
       nursing hours per patient day.                       target for the three groups of days reviewed.
       The facility complied with any additional
       elements required by VHA or local policy.

Recommendations

12. We recommended that nursing managers monitor the staffing methodology that was
implemented in October 2012.

13. We recommended that unit 134-3C’s nurse managers reassess the target nursing hours per
patient day to more accurately plan for staffing and evaluate the actual staffing provided.




VA OIG Office of Healthcare Inspections                                                                     14
                           CAP Review of the Captain James A. Lovell Federal Health Care Center, North Chicago, IL


Preventable PE
The purpose of this review was to evaluate the care provided to patients who were treated at the
facility and developed potentially preventable PE.7

We reviewed relevant documents and 16 EHRs of patients with confirmed diagnoses of PEa
January 1–June 30, 2012. We also interviewed key employees. The table below shows the
areas reviewed for this topic. The area marked as NC needed improvement. Items that did not
apply to this facility are marked “NA.”

    NC                   Areas Reviewed                                                     Findings
         Patients with potentially preventable PE
         received appropriate anticoagulation
         medication prior to the event.
    X    No additional quality of care issues were                  One patient had a potentially missed PE
         identified with the patients’ care.                         diagnosis.
         The facility complied with any additional
         elements required by VHA or local
         policy/protocols.

Recommendation

14. We recommended that managers initiate protected PR for the identified patient and
complete any recommended review actions.




a
 A sudden blockage in a lung artery usually caused by a blood clot that travels to the lung from a vein in the body, most
commonly in the legs.


VA OIG Office of Healthcare Inspections                                                                                     15
                       CAP Review of the Captain James A. Lovell Federal Health Care Center, North Chicago, IL


Construction Safety
The purpose of this review was to determine whether the facility maintained infection control and
safety precautions during construction and renovation activities in accordance with applicable
standards.8

We inspected the Pharmacy Heating, Ventilation, and Air Conditioning Renovation construction
project. Additionally, we reviewed relevant documents and 25 training records (2 contractor
records and 23 employee records), and we interviewed key employees and managers. The
table below shows the areas reviewed for this topic. The areas marked as NC needed
improvement. Items that did not apply to this facility are marked “NA.”

 NC                    Areas Reviewed                                         Findings
       There was a multidisciplinary committee to
       oversee infection control and safety
       precautions during construction and
       renovation activities and a policy outlining the
       responsibilities of the committee, and the
       committee included all required members.
       Infection control, preconstruction, interim life
       safety, and contractor tuberculosis risk
       assessments were conducted prior to project
       initiation.
       There was documentation of results of
       contractor tuberculosis skin testing and of
       follow-up on any positive results.
       There was a policy addressing Interim Life
       Safety Measures, and required Interim Life
       Safety Measures were documented.
 X     Site inspections were conducted by the             Site inspection documentation for 2 quarters
       required multidisciplinary team members at         reviewed:
       the specified frequency and included all            Site inspections were only conducted by the
       required elements.                                    project manager and did not include all
                                                             required elements.
       Infection Control Committee minutes
       documented infection surveillance activities
       associated with the project(s) and any
       interventions.
 X     CSC minutes documented any unsafe                   Deficiencies noted by the project manager
       conditions found during inspections and any          were not documented in the minutes.
       follow-up actions and tracked actions to
       completion.
       Contractors and designated employees
       received required training.
       Dust control requirements were met.
       Fire and life safety requirements were met.
       Hazardous chemicals requirements were met.
       Storage and security requirements were met.




VA OIG Office of Healthcare Inspections                                                                    16
                       CAP Review of the Captain James A. Lovell Federal Health Care Center, North Chicago, IL


 NC            Areas Reviewed (continued)                                       Findings
       The facility complied with any additional
       elements required by VHA or local policy or
       other regulatory standards.

Recommendations

15. We recommended that processes be strengthened to ensure that routine construction site
inspections are conducted by the required CSC members, include all required elements, and
are documented.

16. We recommended that processes be strengthened to ensure that CSC minutes contain
documentation of deficiencies identified during inspections and any follow-up actions in
response to unsafe conditions and that minutes track actions to completion.




VA OIG Office of Healthcare Inspections                                                                    17
                  CAP Review of the Captain James A. Lovell Federal Health Care Center, North Chicago, IL
                                                                                             Appendix A

                  Facility Profile (North Chicago/556) FY 2012b
Type of Organization                                                            Secondary
Complexity Level                                                                Excluded
Affiliated/Non-Affiliated                                                       Affiliated
Total Medical Care Budget in Millions                                           $382.7
Number of:
    Unique Patients                                                            47,937
    Outpatient Visits                                                          363,718
    Unique Employeesc (as of last pay period in FY 2012)                       2,212
Type and Number of Operating Beds:
    Hospital                                                                   88
    CLC                                                                        134
    MH                                                                         125
Average Daily Census: (through August 2012)
    Hospital                                                                   47
    CLC                                                                        120
    MH                                                                         102
Number of Community Based Outpatient Clinics                                    3
Location(s)/Station Number(s)                                                   Evanston, IL/556GA
                                                                                McHenry, IL/556GC
                                                                                Kenosha County,
                                                                                  WI/556GD
VISN Number                                                                     12




b
    All data is for FY 2012 except where noted.

c
    Unique employees involved in direct medical care (cost center 8200). 



VA OIG Office of Healthcare Inspections                                                               18
                 CAP Review of the Captain James A. Lovell Federal Health Care Center, North Chicago, IL
                                                                                            Appendix B

                            VHA Patient Satisfaction Survey 

VHA has identified patient satisfaction scores as significant indicators of facility
performance. Patients are surveyed monthly. Table 1 below shows facility, VISN, and
VHA overall inpatient and outpatient satisfaction scores for FY 2012.

Table 1

                     Inpatient Scores                                 Outpatient Scores
                         FY 2012                                          FY 2012
                 Inpatient       Inpatient        Outpatient      Outpatient       Outpatient       Outpatient
                 Score           Score            Score           Score            Score            Score
                 Quarters 1–2    Quarters 3–4     Quarter 1       Quarter 2        Quarter 3        Quarter 4
Facility         72.5            62.0             61.1            58.9             67.4             58.2
VISN             68.2            66.0             59.2            59.0             57.4             59.6
VHA              63.9            65.0             55.0            54.7             54.3             55.0



                        Hospital Outcome of Care Measures 

Hospital Outcome of Care Measures show what happened after patients with certain
conditions received hospital care.d Mortality (or death) rates focus on whether patients
died within 30 days of being hospitalized. Readmission rates focus on whether patients
were hospitalized again within 30 days of their discharge. These rates are based on
people who are 65 and older and are “risk-adjusted” to take into account how sick
patients were when they were initially admitted. Table 2 below shows facility and U.S.
national Hospital Outcome of Care Measure rates for patients discharged between
July 1, 2008, and June 30, 2011.e

Table 2

                                  Mortality                                     Readmission
               Heart Attack      Heart           Pneumonia       Heart Attack     Heart           Pneumonia
                                 Failure                                          Failure
    Facility   15.2              11.0            14.8            **               27.2            19.5
    U.S.
    National   15.5              11.6            12.0            19.7             24.7            18.5
    ** The number of cases is too small (fewer than 25) to reliably tell how well the facility is performing.




d
  A heart attack occurs when blood flow to a section of the heart muscle becomes blocked, and the blood supply is
slowed or stopped. If the blood flow is not restored timely, the heart muscle becomes damaged. Heart failure is a
weakening of the heart’s pumping power. Pneumonia is a serious lung infection that fills the lungs with mucus and
causes difficulty breathing, fever, cough, and fatigue.
e
  Rates were calculated from Medicare data and do not include data on people in Medicare Advantage Plans (such as
health maintenance or preferred provider organizations) or people who do not have Medicare.


VA OIG Office of Healthcare Inspections                                                                          19
              CAP Review of the Captain James A. Lovell Federal Health Care Center, North Chicago, IL
                                                                                         Appendix C
                              VISN Director Comments



               Department of
               Veterans Affairs                                     Memorandum


       Date:           April 18, 2013

       From:           Director, VA Great Lakes Health Care System (10N12)

       Subject:        CAP Review of the Captain James A. Lovell Federal
                       Health Care Center, North Chicago, IL

       To:             Director, Chicago Office of Healthcare Inspections (54CH)

                       Director, Management Review Service (VHA 10AR MRS
                       OIG CAP CBOC)

       Attached please find the Combined Assessment Program (CAP) response
       to the draft report from the Captain James A. Lovell Federal Health Care 

       Center review. 


       I have reviewed the completed response.


       I appreciate the Office of Inspector General’s efforts to ensure high quality 

       of care to veterans and the active duty patients and families at the Federal
       Health Care Center.




       Jeffrey A. Murawsky, M. D.
       Network Director




VA OIG Office of Healthcare Inspections                                                           20
               CAP Review of the Captain James A. Lovell Federal Health Care Center, North Chicago, IL
                                                                                          Appendix D
                             Facility Director Comments



                Department of
                Veterans Affairs 	                                   Memorandum


       Date: 	          April 18, 2013

       From: 	          Director, Captain James A. Lovell Federal Health Care Center
                        (556/00)

       Subject: 	       CAP Review of the Captain James A. Lovell Federal
                        Health Care Center, North Chicago, IL

       To: 	            Director, VA Great Lakes Health Care System (10N12)

       I am forwarding the Captain James A. Lovell Federal Health Care Center’s
       response to the Office of Inspector General (OIG) Combined Assessment
       Program draft report.

       I want to express my appreciation to the OIG Survey Team for their
       professional and comprehensive CAP review.

       I appreciate the opportunity for this review as a continuing process to
       improve the care to our veterans and DoD patients.




       Patrick L. Sullivan, FACHE
       Medical Center Director




VA OIG Office of Healthcare Inspections                                                            21
              CAP Review of the Captain James A. Lovell Federal Health Care Center, North Chicago, IL


                               Comments to OIG’s Report

The following Director’s comments are submitted in response to the recommendations
in the OIG report:

OIG Recommendations

Recommendation 1. We recommended that processes be strengthened to ensure that
the results of FPPEs for newly hired LIPs are consistently reported to the ECOMS.

Concur

Target date for completion: June 30, 2013

Facility response: All Focused Professional Practice Evaluations (FPPEs) are reported
to the Executive Committee of the Medical Staff (ECOMS). A tracking system has been
developed to track FPPEs from initiation to completion. ECOMS minutes will have
evidence that all FPPEs for newly hired LIPs are reported to the ECOMS.

Recommendation 2. We recommended that the local observation bed policy be
revised to include all required elements.

Concur

Target date for completion: May 30, 2013

Facility response: The FHCC Observation Bed Policy Instruction has been rewritten. It
is currently undergoing review and will be sent for signature upon completion of the
review. This revision specifically specifies:

       a. 	 How the service responsible for the patient is determined.
       b. How the physician responsible for the patient is determined.
       c. 	Each observation patient must have a focused goal for the period of
            observation.

Recommendation 3. We recommended that processes be strengthened to ensure that
when conversions from observation bed status to acute admissions are over 30 percent,
observation criteria and utilization are reassessed.

Concur

Target date for completion: June 30, 2013

Facility response: Our policy on admission had been to admit patients to observation if
they might be discharged within 23 hours. A review of data on patients converted from
observation to inpatient status and diagnoses likely to require more than 23 hours of
care has been performed. Patients with diagnoses likely to require more than 23 hours



VA OIG Office of Healthcare Inspections                                                           22
              CAP Review of the Captain James A. Lovell Federal Health Care Center, North Chicago, IL


of care will be admitted on presentation. Moving forward we will continue to work on
identifying and correcting systemic bottlenecks causing delay of discharge from
observation and requiring conversion to inpatient care. Utilization Committee meeting
minutes will show evidence of re-examination of the criteria for observation as well as
analysis of proper utilization of observation by medical staff when observation to
admission conversion rates exceed 30%.

Recommendation 4. We recommended that processes be strengthened to ensure that
the review of EHR quality includes all services.

Concur

Target date for completion: August 31, 2013

Facility response: A process is being developed to ensure that representative samples
of records from each service/program have a quality review. The sample size will be
reflective of the service/program’s population. The results of the quality record review
will be reported to the Record of Care Committee and documented in the minutes.

Recommendation 5. We recommended that processes be strengthened to ensure that
the blood usage and review process includes the results of proficiency testing and the
results of inspections by government or private (peer) entities.

Concur

Target date for completion: August 31, 2013

Facility response: Proficiency testing is performed quarterly in blood bank (transfusion
service). The results are reported to the Surgical Case Transfusion Committee and
discussed, if necessary. Results are monitored monthly and will be documented in the
Surgical Case Transfusion Committee minutes. Results of inspections by government
or private (peer) entities will be reported to Surgical Case Transfusion Committee.

Recommendation 6. We recommended that processes be strengthened to ensure that
patient care equipment is consistently cleaned between patient use.

Concur

Target date for completion: August 31, 2013

Facility response: A plan is in place for the cleaning of inpatient and outpatient
equipment (geri-chairs, wheelchairs, weight scales, lifts, and scooters) in a designated
cleaning area. The Environment of Care (EOC) checklist has been updated to include
cleanliness of patient care equipment. A monthly routine spot check will be conducted
during EOC or nursing rounds to ensure 90% compliance.




VA OIG Office of Healthcare Inspections                                                           23
              CAP Review of the Captain James A. Lovell Federal Health Care Center, North Chicago, IL


Recommendation 7. We recommended that processes be strengthened to ensure that
gloves in all sizes and gowns are available in the therapy clinic areas.

Concur

Target date for completion: August 31, 2013

Facility response: Glove box holders have been ordered for all therapy areas. These
will be installed by June 2013. Environment of Care rounds will show 90% compliance
with gloves of all sizes and gowns available in therapy areas.

Recommendation 8. We recommended that processes be strengthened to ensure that
inspectors are sufficiently rotated in inspection assignments and that compliance be
monitored.

Concur

Target date for completion: August 31, 2013

Facility response: The tracking system has been improved to insure that the inspectors
are sufficiently rotated. The schedules of the inspectors will be monitored monthly to
ensure compliance.

Recommendation 9. We recommended that processes be strengthened to ensure that
inspectors do not participate in inspections beyond their 3-year appointment expiration
date and that compliance be monitored.

Concur

Target date for completion: August 31, 2013

Facility response: The tracking and scheduling system has been improved to prevent
inspectors from performing consecutive audits in the same area and to ensure
inspectors do not participate beyond their 3-year appointment. The schedules will be
monitored to ensure compliance.

Recommendation 10. We recommended that processes be strengthened to ensure
that the PCCT includes a dedicated nurse, social worker, and administrative support
person and a 0.25 FTE psychologist or other MH provider.

Concur

Target date for completion: Completed April 17, 2013

Facility response: A 1.0 FTE nurse practitioner, 0.25 FTE social worker, 0.25 FTE
psychologist, and 0.25 FTE administrative support person have been assigned to the
PCCT.




VA OIG Office of Healthcare Inspections                                                           24
              CAP Review of the Captain James A. Lovell Federal Health Care Center, North Chicago, IL


Recommendation 11. We recommended that processes be strengthened to ensure
that all non-HPC clinical staff who provide care to patients at the end of their lives
receive end-of-life training.

Concur

Target date for completion: October 31, 2013

Facility response: The plan for end-of-life-training includes:

       1. End-of-life training (general overview) is scheduled to start in May 2013 with
          90% of staff completing training by September 2013.
       2. End of Life Nursing Education Consortium (ELNEC) training for non-HPC staff
          is scheduled to start in May 2013 with a goal of 30% of staff completing
          training by August 2013, 90% by October 31, 2013. This training will be
          available online or through live presentations in order to meet the ongoing
          training requirements for staff.
       3. Grand rounds for physicians, nurses, and other allied staff on end-of-life care
          will be conducted at least annually.

Recommendation 12. We recommended that nursing managers monitor the staffing
methodology that was implemented in October 2012.

Concur

Target date for completion: June 30, 2013

Facility response: Each Nurse Manager is monitoring staffing on a daily basis and is
reporting it monthly to the staffing methodology coordinator. Each quarter the Hospital
Expert Panel comes together and reviews the staffing effectiveness for each unit and
makes recommendations for any adjustments needed to maximize staffing throughout
the facility. Monthly reporting will be 90% compliant.

Recommendation 13. We recommended that unit 134-3C’s nurse managers reassess
the target nursing hours per patient day to more accurately plan for staffing and
evaluate the actual staffing provided.

Concur

Target date for completion: June 30, 2013

Facility response: Unit 134-3C staffing is being re-evaluated for a 90-day period to
monitor workload and acuity of patients in an effort to possibly reset targeted Total
Nursing Hours Per Patient Day (TNPPD) to maximize staffing in a safe patient centered
care environment. In the interim, overtime is being used to meet the existing target of
4.5 Nursing Hours Per Patient Day.




VA OIG Office of Healthcare Inspections                                                           25
              CAP Review of the Captain James A. Lovell Federal Health Care Center, North Chicago, IL


Recommendation 14. We recommended that managers initiate protected PR for the
identified patient and complete any recommended review actions.

Concur

Target date for completion: Completed February 21, 2013

Facility response: The protected PR process has been completed.

Recommendation 15. We recommended that processes be strengthened to ensure
that routine construction site inspections are conducted by the required CSC members,
include all required elements, and are documented.

Concur

Target date for completion: June 30, 2013

Facility response: At the Construction Safety Committee following the OIG visit, the
committee established criteria for which projects would be monitored and which
committee members would be conducting the surveys given the results of the
Pre-Construction Risk Assessment. These surveys are documented and retained on
file. The results of each are discussed during subsequent committee meetings and any
follow-up actions are discussed and recommendations are made concerning long-term
issues or trends. Construction Safety Committee minutes will have evidence of routine
construction site inspections.

Recommendation 16. We recommended that processes be strengthened to ensure
that CSC minutes contain documentation of deficiencies identified during inspections
and any follow-up actions in response to unsafe conditions and that minutes track
actions to completion.

Concur

Target date for completion: June 30, 2013

Facility response: At the Construction Safety Committee following the OIG visit, the
committee established criteria for which projects would be monitored and which
committee members would be conducting the surveys given the results of the
Pre-Construction Risk Assessment. These surveys are documented and retained on
file. The results of each are discussed during subsequent committee meetings and any
follow-up actions are discussed and recommendations are made concerning long-term
issues or trends. Construction Safety Committee minutes will contain documentation of
deficiencies identified during construction site inspections and include follow-up actions
in response to unsafe conditions.




VA OIG Office of Healthcare Inspections                                                           26
              CAP Review of the Captain James A. Lovell Federal Health Care Center, North Chicago, IL
                                                                                         Appendix E

                 OIG Contact and Staff Acknowledgments
Contact                 For more information about this report, please contact the OIG
                        at (202) 461-4720.
Contributors            Roberta Thompson, LCSW, Team Leader
                        Debra Boyd-Seale, PhD, RN
                        Lin Clegg, PhD
                        Sheila Cooley, MSN, RN
                        Wachita Haywood, RN
                        LaNora Hernandez, MSN, RN
                        Kathleen Shimoda, RN
                        Laura Spottiswood, RN, MPH
                        Julie Watrous, RN
                        Jarvis Yu, MS
                        Judy Brown, Program Support Assistant
                        John Brooks, Special Agent in Charge, Office of Investigations




VA OIG Office of Healthcare Inspections                                                           27
              CAP Review of the Captain James A. Lovell Federal Health Care Center, North Chicago, IL
                                                                                         Appendix F

                                   Report Distribution
VA Distribution

Office of the Secretary
Veterans Health Administration
Assistant Secretaries
General Counsel
Director, VA Great Lakes Health Care System (10N12)
Director, Captain James A. Lovell Federal Health Care Center (556/00)

Non-VA Distribution

House Committee on Veterans’ Affairs
House Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
House Committee on Oversight and Government Reform
Senate Committee on Veterans’ Affairs
Senate Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
Senate Committee on Homeland Security and Governmental Affairs
National Veterans Service Organizations
Government Accountability Office
Office of Management and Budget
U.S. Senate: Tammy Baldwin, Richard J. Durbin, Ron Johnson, Mark Kirk
U.S. House of Representatives: Tammy Duckworth, Randy Hultgren, Peter J. Roskam,
 Paul Ryan, Jan Schakowsky, Brad Schneider


This report is available at www.va.gov/oig.




VA OIG Office of Healthcare Inspections                                                           28
                  CAP Review of the Captain James A. Lovell Federal Health Care Center, North Chicago, IL
                                                                                             Appendix G

                                                Endnotes

1
    References used for this topic included:
	 VHA Directive 2009-043, Quality Management System, September 11, 2009.
	 VHA Handbook 1050.01, VHA National Patient Safety Improvement Handbook, March 4, 2011.
	 VHA Directive 2010-017, Prevention of Retained Surgical Items, April 12, 2010.
	 VHA Directive 2010-025, Peer Review for Quality Management, June 3, 2010.
	 VHA Directive 2010-011, Standards for Emergency Departments, Urgent Care Clinics, and Facility Observation
    Beds, March 4, 2010.
	 VHA Directive 2009-064, Recording Observation Patients, November 30, 2009.
	 VHA Handbook 1100.19, Credentialing and Privileging, November 14, 2008.
	 VHA Directive 2008-063, Oversight and Monitoring of Cardiopulmonary Resuscitative Events and Facility
    Cardiopulmonary Resuscitation Committees, October 17, 2008.
	 VHA Handbook 1907.01, Health Information Management and Health Records, September 19, 2012.
	 VHA Directive 6300, Records Management, July 10, 2012.
	 VHA Directive 2009-005, Transfusion Utilization Committee and Program, February 9, 2009.
	 VHA Handbook 1106.01, Pathology and Laboratory Medicine Service Procedures, October 6, 2008.
	 VHA Directive 2008-007, Resident Assessment Instrument (RAI) Minimum Data Set (MDS), February 4, 2008;
    VHA Handbook 1142.03, Requirements for Use of the Resident Assessment Instrument (RAI) Minimum Data Set
    (MDS), January 4, 2013.
2
   References used for this topic included:
	 VHA Directive 2011-007, Required Hand Hygiene Practices, February 16, 2011.
	 VHA Handbook 1330.01, Health Care Services for Women Veterans, May 21, 2010.
	 VA National Center for Patient Safety, “Ceiling mounted patient lift installations,” Patient Safety Alert 10-07,
    March 22, 2010.
	 Various requirements of The Joint Commission, the Centers for Disease Control and Prevention, the Occupational
    Safety and Health Administration, the National Fire Protection Association, the American National Standards
    Institute, the Association for the Advancement of Medical Instrumentation, and the International Association of
    Healthcare Central Service Material Management.
3
   References used for this topic included:
	 VHA Handbook 1108.01, Controlled Substances (Pharmacy Stock), November 16, 2010. 
	 VHA Handbook 1108.02, Inspection of Controlled Substances, March 31, 2010.
	 VHA Handbook 1108.05, Outpatient Pharmacy Services, May 30, 2006.
	 VHA Handbook 1108.06, Inpatient Pharmacy Services, June 27, 2006.
	 VHA, “Clarification of Procedures for Reporting Controlled Substance Medication Loss as Found in VHA
    Handbook 1108.01,” Information Letter 10-2011-004, April 12, 2011.
	 VA Handbook 0730, Security and Law Enforcement, August 11, 2000.
	 VA Handbook 0730/2, Security and Law Enforcement, May 27, 2010.
4
   References used for this topic included:
	 VHA Directive 2008-066, Palliative Care Consult Teams (PCCT), October 23, 2008.
	 VHA Directive 2008-056, VHA Consult Policy, September 16, 2008.
	 VHA Handbook 1004.02, Advanced Care Planning and Management of Advance Directives, July 2, 2009.
	 VHA Handbook 1142.01, Criteria and Standards for VA Community Living Centers (CLC), August 13, 2008.
	 VHA Directive 2009-053, Pain Management, October 28, 2009.
	 Under Secretary for Health, “Hospice and Palliative Care are Part of the VA Benefits Package for Enrolled
    Veterans in State Veterans Homes,” Information Letter 10-2012-001, January 13, 2012.
5
   References used for this topic were:
	 VHA Directive 2006-021, Reducing the Fire Hazard of Smoking When Oxygen Treatment is Expected,
    May 1, 2006.
	 VHA Handbook 1173.13, Home Respiratory Care Program, November 1, 2000.
6
   The references used for this topic were:
	 VHA Directive 2010-034, Staffing Methodology for VHA Nursing Personnel, July 19, 2010.
	 VHA “Staffing Methodology for Nursing Personnel,” August 30, 2011.




VA OIG Office of Healthcare Inspections                                                                         29
                   CAP Review of the Captain James A. Lovell Federal Health Care Center, North Chicago, IL



7
     The reference used for this topic was:
	 VHA Office of Analytics and Business Intelligence, External Peer Review Technical Manual, FY2012 quarter 4,
   June 15, 2012, p. 80–98. 
8
  References used for this topic included:
	 VHA Directive 2011-036, Safety and Health During Construction, September 22, 2011.
	 VA Office of Construction and Facilities Management, Master Construction Specifications, Div. 1, “Special
   Sections,” Div. 01 00 00, “General Requirements,” Sec. 1.5, “Fire Safety.”
	 Various Centers for Disease Control and Prevention recommendations and guidelines, Joint Commission
   standards, and Occupational Safety and Health Administration (OSHA) regulations.




VA OIG Office of Healthcare Inspections                                                                        30
